         ACCURACY OF THE GOVERNMENT-OWNED
      CONTRACTOR-OCCUPIED REAL PROPERTY IN THE
   MILITARY DEPARTMENTS’ REAL PROPERTY DATABASES

Report No. D-2001-026                   December 22, 2000




             Office of the Inspector General
                 Department of Defense
   Additional Copies

   To obtain additional copies of this audit report, visit the Inspector General, DoD,
   Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
   Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
   (DSN 664-8937) or fax (703) 604-8932.

   Suggestions for Future Audits

   To suggest ideas for or to request future audits, contact the Audit Followup and
   Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
   fax (703) 604-8932. Ideas and requests can also be mailed to:

                     OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

   Defense Hotline

   To report fraud, waste, or abuse, contact the Defense Hotline by calling
   (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
   by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
   The identity of each writer and caller is fully protected.




Acronyms
CPMS                 Contract Property Management System
DCMA                 Defense Contract Management Agency
GOCO                 Government-Owned Contractor-Occupied
JHU-APL              Johns Hopkins University Applied Physics Laboratory
NAVFAC               Naval Facilities Engineering Command
NFADB                Navy Facility Assets Data Base
                       Office of the Inspector General, DoD
Report No. D-2001-026                                                December 22, 2000
  (Project No. D1999-FH-0089.000)


        Accuracy of the Government-Owned Contractor-Occupied
              Real Property in the Military Departments’
                        Real Property Databases

                                Executive Summary

Introduction. This audit was performed to support the requirements of the Chief
Financial Officers Act of 1990, as amended by the Federal Financial Management Act
of 1994. Accurate reporting of real property on the Military Departments’ real
property databases is essential to DoD and the Federal Government receiving favorable
audit opinions on their financial statements. For FY 1999, contractors reported
$7.7 billion of Government-owned contractor-occupied real property. We reviewed
289 properties at a reported value of $170 million. Contractors occupying
Government-owned facilities have the responsibility to maintain detailed records for the
real property and annually report the real property through submission of the DD Form
1662, “DoD Property in the Custody of Contractors,” to the Defense Contract
Management Agency. In addition, the Military Departments must include Government-
owned contractor-occupied real property in their real property databases because they
retain the title to the property.

Objectives. Our objective was to determine whether the Military Departments’ real
property databases accurately accounted for the existence, completeness, and valuation
of real property in the possession of contractors. In addition, we assessed compliance
with laws and regulations and the management control program.

Results. The Army real property databases that we sampled contained an accurate
inventory of Government-owned contractor-occupied real property, but the Navy and
Air Force databases did not. The Navy real property database did not include 17 of the
80 facilities, with a reported value of $38.9 million, tested for completeness, and the
Air Force real property database did not include 8 of the 69 facilities, with a reported
value of $43.1 million, tested for completeness. As a result, the Navy real property
database was understated by at least $13.0 million or 33.4 percent of the value of the
tested facilities, and the Air Force database was understated by at least $6.8 million or
15.8 percent of the tested facilities before consideration of the valuation errors. In
addition, the Air Force did not accurately reflect the value of at least 56 properties in
the real property databases. The Air Force reported value for the 56 properties was
$31.9 million. The contractor reported value was $146.6 million. As a result, the Air
Force understated real property by an additional $114.9 million or 78.4 percent of the
contractor reported amount. See Appendix A for details of the management control
program as it relates to the accuracy of the Military Departments’ real property
databases for Government-owned contractor-occupied facilities.

Summary of Recommendations. We recommend that the Commander, Naval
Facilities Engineering Command, and the Assistant Secretary of the Air Force, Deputy
Chief of Staff (Installations and Logistics, Civil Engineer), improve the accuracy of the
real property databases for Government-owned contractor-occupied real property
through a reconciliation between the real property reported by the contractors on the
DD Form 1662, “DoD Property in the Custody of Contractors,” and the real property
reported in the real property database. Specifically, the Air Force should correct the
real property databases for erroneous values assigned to Government-owned contractor-
occupied facilities. In addition, the Navy and the Air Force should develop
management controls and procedures to ensure that changes made to Government-
owned real property by contractors are recorded in the real property databases of the
Navy and the Air Force.

Management Comments. The Assistant Secretary of the Air Force, Deputy Chief of
Staff (Installations and Logistics, Civil Engineer), concurred with our
recommendations. The Assistant Secretary agreed to improve the accuracy of the real
property databases by reconciling the DD Form 1662 to the real property accountability
records and recommending management controls to the Defense Contract Management
Agency for inclusion in contract modifications. In addition, the Assistant Secretary, if
necessary, may request the Defense Contract Management Agency to modify the
contracts to require that the contractors provide accountability data that is compatible
with an Air Force system. Finally, the Assistant Secretary agreed to correct acquisition
cost values for FY 2001 properties reported in the accountability records. The
Commander, Naval Facilities Engineering Command concurred with our
recommendation to improve the accuracy of the real property databases through the
issuance of guidance in both the database and the contracting manual. The Commander
nonconcurred with our recommendation to develop management controls and processes
for the contractor to report data. The Commander stated that the appropriate DoD
office had already provided such guidance and that data in the DD Form 1662 and in
the Navy Facility Assets Data Base could not be reconciled. The complete text of the
comments is in the Management Comments section. The comments are summarized
and discussed in the Finding section of the report.

Audit Response. We consider the Assistant Secretary of the Air Force, Deputy Chief
of Staff (Installations and Logistics, Civil Engineer), comments to be responsive to the
recommendations. However, the Assistant Secretary’s response only addressed
correcting the acquisition costs for FY 2001 properties. We identified acquisition cost
problems with properties that were in the system during FY 1999. As a result, we
request that the Assistant Secretary of the Air Force, Deputy Chief of Staff
(Installations and Logistics, Civil Engineer), clarify that the intention is to correct the
properties valued incorrectly prior to FY 2001 as well the FY 2001 properties. We
consider the Commander, Naval Facilities Engineering Command, comments to be
partially responsive. The Naval Facilities Engineering Command is responsible for
verifying that the Government-owned contractor-occupied properties reported on the
DD Form 1662 is properly recorded by the Navy. The Naval Facilities Engineering
Command should develop a methodology to verify that the contractor and the Navy real
property information is reconciled and recorded correctly in the database. Management
controls and processes can be used to improve the accuracy of the information. We
request that the Assistant Secretary of the Air Force, Deputy Chief of Staff
(Installations and Logistics, Civil Engineer), and the Commander, Naval Facilities
Engineering Command, provide additional comments to the final report by
February 22, 2001.




                                            ii
Table of Contents

Executive Summary                                                                  i


Introduction
     Background                                                                    1
     Objectives                                                                    2

Finding
     Accuracy and Value of Government-Owned Contractor-Occupied Real
       Property in the Military Departments’ Real Property Databases              3

Appendixes
     A. Audit Process
           Scope and Methodology                                                  14
           Management Control Program                                             15
     B. Prior Coverage                                                            17
     C. Report Distribution                                                       18


Management Comments
     Assistant Secretary of the Air Force, Deputy Chief of Staff (Installations
       and Logistics, Civil Engineer)                                             21
     Naval Facilities Engineering Command                                         24
Background
    This audit was performed to support the requirements of Public Law 101-576,
    the “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994. On May 15, 1998, the Secretary of Defense issued a
    memorandum, “Department of Defense Financial Business Practice Reform,”
    which states a commitment to the administration’s goal of obtaining a favorable
    audit opinion on the FY 1999 consolidated financial statements of the Federal
    Government. Accurate reporting of all real property on the Military
    Departments’ real property databases is essential to DoD receiving favorable
    audit opinions in the future. For FY 1999, contractors reported $7.7 billion of
    Government-owned contractor-occupied (GOCO) real property.

    This report is the fourth in a series of reports on accounting for property, plant
    and equipment. The first report states that real property databases for the
    Military Departments generally contained sufficiently accurate inventories of
    real property with individual reported values greater than $100,000. The
    second report states that the Defense Commissary Agency had improved
    personal property accountability; however, the personal property database of
    October 1999 did not contain an accurate inventory of personal property. The
    third report states that the Military Departments’ real property databases did not
    accurately reflect the FY 1999 additions, deletions, and modifications made to
    real property.

    Each contractor occupying Government property is required to report real
    property annually on the DD Form 1662, “DoD Property in the Custody of
    Contractors.” That form is the input source for the Contract Property
    Management System (CPMS) database maintained by the Defense Contract
    Management Agency, previously the Defense Contract Management Command.
    The contractor has the responsibility to maintain detailed records for the real
    property and annually report to the Government property administrator the
    beginning and ending balances to include any changes to the real property. In
    addition, the Military Departments must include GOCO real property in their
    real property databases because they retain the title to the property.

    Comparison of real property data obtained from DD Forms 1662, “DoD
    Property in the Custody of Contractors,” to real property data obtained from the
    Military Departments’ databases provided an exception framework for physical
    examination of the real property and assessment of the reporting accuracy. We
    judgmentally selected Army, Navy, and Air Force locations for existence testing
    (to verify that a record in the database had a corresponding item) and
    completeness testing (to verify that an observed item had a record in the
    database). In addition, we reconciled the values reported in the Military
    Departments’ real property databases with the contractor-recorded values for the
    items tested for existence and completeness.




                                         1
Objectives
     Our objective was to determine whether the Military Departments’ real property
     databases accurately accounted for the existence, completeness, and valuation of
     real property in the possession of contractors. We assessed compliance with
     laws and regulations and the management control program. See Appendix A for
     a discussion of the audit scope, methodology, and the review of the management
     control program. See Appendix B for prior coverage related to the audit
     objectives.




                                        2
           Accuracy and Value of Government-
           Owned Contractor-Occupied Real
           Property in the Military Departments’
           Real Property Databases
           The Navy and the Air Force real property databases did not contain an
           accurate inventory of or an accurate value for GOCO real property. The
           Navy and the Air Force real property databases were not accurate
           because of poor management controls and noncompliance with applicable
           laws and regulations. Specifically:

                •   Management controls were not adequate to ensure that the Navy
                    and Air Force real property personnel obtained the information
                    needed to update the real property databases for the changes that
                    the contractors made.

                •   The Air Force did not comply with DoD regulations that
                    required accurate valuation of all real property. The Air Force
                    input a $1,000 value in the real property database to recognize
                    GOCO property when completed but did not update the database
                    when it had the final costs.

           As a result of our sample, the Navy and Air Force real property
           databases were understated by at least $13.0 million (33.4 percent) and
           $6.8 million (15.8 percent) respectively for omitted properties. In
           addition, the Air Force real property database was understated by an
           additional $114.9 million for undervalued properties or 78.4 percent of
           the contractors’ reported value.

Real Property Database Systems
    Real property database systems were maintained by both the Military
    Departments and the contractors to account for facilities and their associated
    costs. For consistency among contractors, Congress requested the creation of a
    contractor system to record GOCO acquisition values and capital improvement
    costs. The system contains information about property that DoD owned but that
    the contractors used according to the Federal Acquisition Regulation part 45,
    “Government Property,” subpart 45.505-7, “Records of Real Property,”
    effective as of April 25, 2000. The Federal Acquisition Regulation states that
    the contractor records of Government property are the official records. The
    Government is not to maintain or support duplicate records. However, the
    CPMS database was not designed for financial reporting, and CPMS contains
    only summary data of contractor-occupied facilities. Contractors are not
    required to provide individual costs for each facility. However, the contractor
    should have the information available for periodic checks or reconciliation by
    the Government property administrator (property administrator).

                                        3
The property administrator is responsible for the review and approval of the
contractor’s property control system to verify compliance with the Government
property clauses of the contract. In addition, the property administrator may
represent the Defense Contract Management Agency (DCMA) or one of the
Military Departments and is responsible for periodic checks of contractor-
occupied properties. The property administrator compares the information on
the DD Form 1662, “DoD Property in the Custody of Contractors,” with a
physical inspection of the sites. Reconciliations are performed, when
warranted.

The Military Departments do not use the CPMS when reporting GOCO real
property on the financial statements. Therefore, the Military Departments must
still keep the databases complete with all real property. The Military
Departments use codes in the database to identify GOCO properties. However,
capturing and summarizing the total dollar value of GOCO real property in the
databases is difficult. As a result, to evaluate the materiality of GOCO
properties to other real property, we used the values that the contractors
reported in the DD Forms 1662.

The Army, to include contractor and Army real property personnel, used the
Integrated Facilities System to record $12.3 billion of real property for
FY 1999. The Integrated Facilities System allowed real property personnel to
enter data from their duty station. The contractors used the Integrated Facilities
System as their official real property records for the Army real property. In
addition, the contractors reported the required information in CPMS. We
sampled 39 facilities for existence testing and 140 facilities for completeness
testing.

The Navy used the Navy Facility Assets Data Base (NFADB) to account for
$17 billion of Navy-owned real property for FY 1999. The Navy designed a
remote access software program to provide Naval personnel with the ability to
update NFADB. Before the remote access, and for Navy installations not able
to use the software and for all contractor locations visited, personnel at a
regional engineering field office in Norfolk, Virginia, were responsible for a
manual input of data into NFADB. We sampled 24 facilities for existence
testing and 80 facilities for completeness testing.

In the Air Force, the Automated Civil Engineering System replaced the
previously used Interim Work Information Management System database. The
Air Force reported $18.2 billion in real property in FY 1999. Only contractors
located at the Air Force Plants and a few Air Force bases could not enter real
property data directly into the Automated Civil Engineering System database.
We sampled 63 facilities for existence testing and 69 facilities for completeness
testing.




                                     4
Accuracy of the Military Departments’ Databases for GOCO
  Real Property
    Although we found no existence problems at the seven sites visited, management
    controls were not adequate to ensure that the Navy and Air Force real property
    databases were complete for GOCO real property. Specifically, the real
    property personnel responsible for the Military Departments’ real property
    databases did not coordinate effectively with contractors, Government contract
    administrators, or the military organizations writing the contracts, to obtain the
    changes made to the GOCO properties.

    Testing for Existence. For existence testing, we selected 39 facilities in the
    Army, 24 facilities in the Navy, and 63 facilities in the Air Force real property
    databases and verified that the facilities existed. To test for existence, we
    judgmentally selected assets from the Military Departments’ real property
    databases and traced the assets to their physical location. If we did not find the
    assets selected, we considered it an existence error. We verified that all
    126 facilities existed.

    Testing for Completeness. For completeness testing, we selected
    140 facilities, with a reported value of $88.2 million, in the Army; 80 facilities,
    with a reported value of $38.9 million, in the Navy; and 69 facilities, with a
    reported value of $43.1 million, in the Air Force. We found all 140 assets in
    the Army real property database. In the Navy, of the 80 facilities selected, we
    did not find 17 facilities in the real property database. In the Air Force, of the
    69 facilities selected, we did not find 8 facilities in the Air Force databases. In
    addition, both the Navy and the Air Force did not always add capital
    improvements to the real property databases. As a result, the Navy real
    property database was understated by at least $13.0 million, and the Air Force
    real property database was understated by at least $6.8 million.

    To test completeness, we judgmentally selected facilities at each location where
    we performed existence testing and traced the selected asset back to the real
    property databases to verify that the Military Department included the facility in
    the real property database. If the Military Department did not include the
    selected real property facility in the real property database, we considered it a
    completeness error. To state that the database was reliable for completeness, no
    more than five percent of the assets tested could be omitted from the database.
    Figure 1 shows the results of completeness testing at selected locations.




                                         5
                                  Items selected

                      140         Items not found
                150
  Sample Size
                100                     80
                                                             69

                50
                                             17                    8
                            0
                 0
                       Army              Navy               Air Force
  Figure 1. Results of Completeness Testing by Military Department

Accuracy of the Real Property Database at the Army. We performed
completeness testing at the Lake City Army Ammunition Plant, Independence,
Missouri, and the Hawthorne Army Depot in Hawthorne, Nevada. In the
Army, we selected 140 assets and found all of them in the database. The Army
did not have a completeness problem because contractors input real property
information directly into the Integrated Facilities System. Reporting
information in the same system alleviated the need for reconciliation between
the contractor’s system and the Army systems.

Accuracy of the Real Property Database at the Navy. We performed
completeness testing at three sites for the Navy, the Allegany Ballistics
Laboratory, Rocket Center, West Virginia; Newport News Shipbuilding,
Newport News, Virginia; and the Johns Hopkins University Applied Physics
Laboratory (JHU-APL), Laurel, Maryland. In the Navy, we selected 80 assets
for testing and could not find 14 buildings and 3 additions to existing buildings
in the NFADB. We found no errors at the Allegany Ballistics Laboratory
because the contractor communicated directly with Naval Facilities Engineering
Command (NAVFAC) personnel in Norfolk, Virginia. The contractor drafted a
memorandum to NAVFAC with enclosures of the property record cards
indicating new construction at the site. NAVFAC personnel in Norfolk,
Virginia, are responsible for updating the NFADB. We found errors at
Newport News Shipbuilding and JHU-APL that understated the real property
value by $13 million. Because the number of errors exceeded our acceptable
error rate, we found the Navy real property database to be unreliable.

        Newport News Shipbuilding. At Newport News Shipbuilding, the
contractor reported 14 buildings, with a value of $10.2 million, on the
DD Form 1662. Although we physically observed the 14 buildings selected for
completeness testing, none of the 14 buildings were located on NFADB. We
examined the Government’s records and held discussions with contractor and
NAVFAC personnel to identify the property in NFADB, but without success.
The GOCO buildings were scattered among contractor-owned buildings within a
large area of the shipyard and were assigned contractor, not Government,
building numbers. The contractor did not follow the Federal Acquisition
Regulation, subpart 45.506, “Identification,” which requires that the contractor

                                    6
           identify Government property in accordance with agency regulations. As a
           result, the NFADB was incomplete by at least 14 facilities and underreported
           the real property value by $10.2 million.

                   Johns Hopkins University Applied Physics Laboratory. At JHU-
           APL, we tested four items for completeness. Of the four items tested, three
           assets, valued at $2.8 million, could not be located in the Navy database.
           Further investigation of the difference indicated that the errors related entirely to
           additions made to real property since calendar year 1990. With a recent change
           in property management personnel at JHU-APL, the past additions had been
           added in total to the DD Form 1662 in calendar year 1998, but not to the
           NFADB. Although the DD Form 1662 only required the total amount of real
           property, the NFADB required detailed information per building. Not reporting
           additions to NFADB caused the three completeness errors and an
           understatement of $2.8 million.

           Accuracy of the Real Property Database at the Air Force. We performed
           completeness testing at Tinker Air Force Base, Oklahoma, and Air Force
           Plant 42, Palmdale, California. For the Air Force, we selected 69 assets and
           could not locate 8 of the assets in the database. At Tinker Air Force Base, we
           tested 10 facilities for completeness of the Air Force database and found no
           problems. At Air Force Plant 42, we tested 59 assets for completeness and
           found 8 errors. Both the Government and the contractor caused the errors. As
           a result, the Air Force database was understated by at least $6.8 million.
           Because the number of errors exceeded our acceptable error rate, we found the
           Air Force real property database to be unreliable.

           Eight separate production sites surrounded a common runway complex at
           Air Force Plant 42. The major contractors occupying the sites were Northrop-
           Grumman (sites 3 and 4), Lockheed Martin (sites 2, 7, and 8), Cabaco (site 5),
           and Boeing/National Aeronautics and Space Administration (site 1). Both
           Lockheed Martin and Boeing/National Aeronautics and Space Administration
           had completeness errors.

           Specifically, at Lockheed Martin, out of the 14 assets tested, 2 had completeness
           errors. At Boeing/National Aeronautics and Space Administration, we tested
           20 assets, which had 6 completeness errors. Boeing held Hush Houses,∗ with a
           reported value of $5.4 million, which were classified as real property on the
           DD Form 1662 but were not included in the Air Force real property database.
           We included the two Hush Houses in the completeness results because we
           considered them to be real property. Of the six additional facilities not included
           in the database, Boeing also held two manufacturing facilities with a reported
           value of $1.1 million. The eight omitted facilities understated the database by
           $6.8 million.



∗
    The Hush Houses were designed to suppress aircraft engine noise during testing. The contractors
    considered the buildings to be real property, but the Air Force considered the Hush Houses to be
    equipment.

                                                      7
Coordination Among Proponents. We found a lack of coordination between
real property personnel and the other proponents responsible for real property
accountability. For example, real property personnel at NAVFAC and the
Air Force Real Estate Agency did not coordinate with the contractors to obtain
the changes made to the real property in their possession. In addition, DCMA
and the contract users were not required to provide real property information to
the real property personnel. As a result, the information needed to keep the real
property databases current was not being obtained or forwarded to the
responsible personnel. However, according to DCMA personnel, the Military
Departments did have access to the CPMS and could obtain the information
from the system.

        Navy Coordination. Several breakdowns in coordination existed among
the real property personnel, the contractor, the property administrator, and the
user. While visiting the Supervisor of Shipbuilding in Norfolk, Virginia, we
found 14 GOCO real property items not recorded in the NFADB. The NFADB
is the official financial real property record for the Navy and supports the values
reported on the financial statements. The Naval Sea Systems Command wrote
the contracts and knew of the buildings associated with five different contracts.
The contracts listed the buildings and their relative values. The contractors had
reliable and auditable property records for each of the buildings as the contract
required. DCMA received a DD Form 1662 annually from the contractor and
used the DD Form 1662 to update the CPMS database for additions, deletions,
and modifications to the real property in the contractor possession. NAVFAC
had no knowledge of the buildings, the contracts, or the information reported to
DCMA on the DD Form 1662. As a result, NAVFAC did not record the real
property in the NFADB, and in turn, it was not reported on the Navy or DoD
financial statements. NAVFAC was unaware of the property because DCMA,
the Naval Sea Systems Command, the property administrator, and the contractor
did not inform NAVFAC of the GOCO property.

        The contractors at JHU-APL were required to supply only real property
information to the Government when requested. During FY 1998, when the
Navy requested real property changes from JHU-APL, the contractor did not
report the additions because JHU-APL real property personnel felt that the
additions were not Government property. The contractor should have reported
all additions to Government-owned real property when requested by the Navy.
JHU-APL showed the lack of instructions and requirements for determining
reportable changes to Government-owned real property.

        Air Force Coordination. We found no completeness errors at Tinker
Air Force Base because Government real property personnel entered GOCO real
property information directly into the real property database. However, at
Air Force Plant 42, the Air Force real property personnel annually mail the
AR 7115 report, “U.S. Air Force Real Property Inventory Change Report,” to
the contractors. In that report, the Air Force requested that the contractors
annotate any changes to the real property records. Not all contractors
responded to the request, and for those that did respond, some updated only
square footage and usage codes. In some instances, the AR 7115 report did not
get to the correct contractor personnel, was not returned, or was only partially
updated. The instructions accompanying the AR 7115 report were not concise,
                                     8
    and some contractors did not update the AR 7115 report because of past security
    standards. When the report was returned, the Air Force did not always enter
    the information in the real property databases.

    Coordination among the proponents can be improved through formalized
    procedures for information gathering and reporting. The Navy and the
    Air Force should include instructions in the contracts and clearly communicate
    them to the contractors. In addition, real property officials can use CPMS to
    obtain summary information on changes made to Government property.

Valuation of Air Force GOCO Real Property
    The real property databases in the Air Force did not contain an accurate value
    for all GOCO properties. Of the 358 assets chosen for valuation testing,
    56 Air Force assets had critical valuation errors. As a result, the contractors
    recorded a value of $146.6 million for the 56 assets, but the Air Force recorded
    a value of $31.7 million for the same 56 assets, resulting in an understatement
    of $114.9 million.

    Air Force Valuation. In addition to existence and completeness testing, we
    compared the dollar values recorded in the Military Departments’ databases with
    the dollar values recorded in the contractor’s real property records. A critical
    error occurred when the contractor’s recorded value for the selected asset was
    outside a plus or minus 10-percent range of the Military Departments’ recorded
    value. We chose our sample by using the same assets chosen for existence and
    completeness testing. We used the contractor’s records to identify asset values
    because not all of the assets were in the Military Departments’ databases
    because of completeness errors. The causes for critical errors can be
    summarized under the lack of updating the real property databases and the
    Air Force’s erroneous valuation of assets at $1,000.

    At Air Force Plant 42, 48 buildings had valuation errors. For example, a
    contractor reported a value of $795,541 for a building, and the Air Force valued
    the same building at $68,000. In addition to valuing the building incorrectly,
    the Air Force omitted the cost to install an electrical system, valued at
    $259,213. The Air Force reported eight buildings with a contractor-reported
    value of $106.6 million as $1,000 each. The contractor recorded a value of
    $99 million for the largest of the three buildings. The Air Force inaccurately
    valued the real property at the inception of the assets into the database. For
    inventory purposes, the Air Force recognized real property projects in the
    database when completed. The final cost to the Government was not always
    known at that time because of the inability to capitalize a partial work order,
    pending litigation, and recording assets when placed in service. When the
    Government had the final costs, either the Air Force was not informed, or the
    database was not updated. The Air Force should correct the values reported on
    the properties when the final costs are in place.

    Contractor Valuation. Federal Acquisition Regulation part 45, “Government
    Property,” subpart 45.505-14, “Reports of Government Property,” requires

                                        9
   contractors to report annually the total acquisition cost of Government-owned
   property for which they are accountable under each contract. Property
   administrators at Tinker Air Force Base provided information to the contractors
   to update their records regarding the cost of the property occupied.

           Use of Incorrect Information on DD Form 1662. Contractors at
   Tinker Air Force Base reported GOCO real property with the replacement value
   instead of acquisition cost. By using the replacement value instead of the
   acquisition cost, the reported values of the real property on the DD Form 1662
   for Tinker Air Force Base were greatly overstated. Although the acquisition
   cost of the property tested for existence at Tinker Air Force Base was
   $1.3 million, the DD Form 1662 stated $25.7 million. The acquisition cost of
   the property tested for completeness was $5.9 million; however, the
   DD Form 1662 stated $16.4 million. Although the incorrect values were used
   on the DD Forms 1662, the reported values on the financial statements were not
   affected because the Government did not use the DD Form 1662 for financial
   statement reporting purposes. Because our objectives did not include validating
   the DD Form 1662, we did not do an in-depth review of the values reported.

           Omissions on the DD Form 1662. At Air Force Plant 42, we found
   problems with omitted DD Forms 1662. Lockheed Martin reported
   $41.6 million in real property on its DD Form 1662. The contractor prepared
   the DD Form 1662 and gave it to the Government’s property administrator.
   The DCMA property administrator did not submit the DD Form 1662 to DCMA
   for input into the CPMS database. The reason that the property administrator
   gave for withholding the $41.6 million from the CPMS database was security
   reasons. The property administrator could not provide any documentation or
   written authorization to withhold the data for security reasons. All the other
   contractors at Air Force Plant 42 submitted a DD Form 1662. In addition, all
   of Lockheed Martin’s buildings were visible from public roads and could be
   seen during commercial air flights. In addition, Northrop-Grumman incorrectly
   reported $7.9 million for real property on site 8 on its DD Form 1662. Because
   Northrop-Grumman no longer occupied site 8, it should not be included on the
   total of real property reported on its DD Form 1662. Lockheed Martin occupies
   site 8 and should report it on its DD Form 1662. Both Northrop-Grumman and
   Lockheed Martin erroneously included land values within the “Other Real
   Property” total on the DD Form 1662.

Summary
   To maintain accountability of GOCO facilities, several proponents must
   coordinate. The real property database personnel, the Government contracting
   entity, the Government property administrator, and the contractor each have
   responsibility. Whenever the contractor modifies or adds property, the
   information must be communicated not only to DCMA through the CPMS, but
   to the real property database personnel, too. At the time of this audit, the
   vehicles exist to allow for communication, but the management controls are not
   in place to ensure use of the vehicles. Because the contractors maintain the
   official records for the Military Departments, the Navy and the Air Force need

                                      10
    to use a formalized method, such as the one that the Army developed. In
    addition, the Military Departments can have access to the summary information
    in CPMS. However, the Military Departments must obtain the information
    reported on the DD Form 1662, in its individual form. If the process is not put
    in place, the Military Departments’ real property databases cannot be relied
    upon for completeness. Because of the management control weakness, the
    Military Departments’ real property databases were understated by at least
    $134.7 million for FY 1999.

Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Commander, Naval Facilities Engineering
    Command:

              a. Improve the accuracy of the real property databases for
                 Government-owned contractor-occupied real property
                 through a reconciliation between the real property reported
                 by the contractors on the DD Form 1662 and the real
                 property reported in the real property database.

    Management Comments. The Commander concurred and agreed to request
    that the contractors complete property records in accordance with Naval
    Facilities Engineering Command P-78, “Navy Facility Asset Database
    Management System.”

              b. Develop management controls and processes for contractors to
                 report data that they compile on the DD Form 1662, and for
                 the Navy to later report the data to and record the data in the
                 real property databases of the Navy.

    Management Comments. The Commander nonconcurred because the Naval
    Facilities Engineering Command considers this the responsibility of another
    DoD office. In addition, the Commander stated that the information on the
    DD Form 1662 and the information contained in the database do not lend
    themselves to be reconciled.

    Audit Response. We consider the comments nonresponsive and note that the
    Air Force concurred with the same type of recommendation. In the response to
    Recommendation 1.a., the Commander agreed to reconcile the real property
    reported by the contractors on the DD Form 1662, with the real property
    reported in the Navy Facility Assets Data Base. Yet, in the response to this
    recommendation, the Commander stated that the two sources of real property
    data do not lend themselves to be reconciled. The two sources of information
    can be reconciled and should be as agreed to in Recommendation 1.a. The
    Naval Facilities Engineering Command is responsible for the accuracy of the
    real property data in the Navy Facility Assets Data Base.



                                       11
During the audit we determined that the Navy contracts had stated that the
contractor must provide, at the Government’s request, any or all of the basic
information set forth in the Federal Acquisition Regulation 45.505-1. The basic
information contains the name of the property, national stock number, unit
price, location, and date of transaction. This is the same type of information
needed in the Navy Facility Assets Data Base. When the Naval Facilities
Engineering Command requested this information, the contractor provided it.
When it was not specifically requested, it was not received. Management
controls must be established that will verify that all contractors provide this
pertinent information to the Naval Facilities Engineering Command. We
request that the Commander reconsider his response and provide comments to
the final report.

          c. Provide contractors with contractual guidance that clearly
             identifies the information gathering and reporting needed to
             allow for the maintenance of the real property databases.

Management Comments. The Commander concurred and agreed to provide
the additional guidance needed to clearly identify to the contractors, the
information that should be gathered and reported to the Naval Facilities
Engineering Command for proper maintenance of the real property database.

2. We recommend that the Assistant Secretary of the Air Force, Deputy
Chief of Staff (Installations and Logistics, Civil Engineer):

          a. Improve the accuracy of the real property databases for
             Government-owned contractor-occupied real property
             through a reconciliation between the real property reported
             by the contractors on the DD Form 1662 and the real
             property reported in the real property database.

Management Comments. The Assistant Secretary concurred and has started
evaluating alternatives to verify that DD Form 1662 and the real property
databases agree. In addition, the Air Force plans to expend funds to develop an
automated system and to train plant personnel on reconciling the two systems.

          b. Develop management controls and processes for contractors to
             report data that they compile on the DD Form 1662, and for
             the Air Force to later report the data to and record the data
             in the real property databases of the Air Force.

Management Comments. The Assistant Secretary concurred and plans to
modify the contracts to ensure the contractors use an automated system to report
data now compiled on the DD Form 1662. The Air Force will evaluate the
management controls both within the Air Force and the contractors to verify that
the DD Form 1662 and the real property databases are accurate.

          c. Provide contractors with contractual guidance that clearly
             identifies the information gathering and reporting needed to
             allow for the maintenance of the real property databases.

                                   12
Management Comments. The Assistant Secretary concurred and agreed to
evaluate the need to modify their contracts through the Defense Contract
Management Agency to require contractors to use the automated system to
report real property.

           d. Correct the values reported on the properties with the
              recorded $1,000 values.

Management Comments. The Assistant Secretary concurred and agreed to
correct FY 2001 acquisition values reported in the accountability records to
reflect the costs identified on the DD Form 1662.

Audit Response. The Assistant Secretary comments were responsive to the
recommendation. However, the Assistant Secretary’s response only identified
correcting the acquisition costs for FY 2001 properties. The finding identified
acquisition cost problems with properties that were in the system during
FY 1999. In response to the final report, we request that the Assistant Secretary
of the Air Force, Deputy Chief of Staff (Installations and Logistics, Civil
Engineer), clarify that the intention is to correct the properties valued
incorrectly prior to FY 2001 in addition to the FY 2001 properties.




                                   13
Appendix A. Audit Process

Scope and Methodology
    Work Performed. In this financial-related audit, we evaluated the management
    controls associated with maintaining the Military Departments’ real property
    databases. Specifically, we concentrated on GOCO real property in the Military
    Departments’ databases. We used the CPMS database as of
    September 30, 1999, to determine contractors occupying Government-owned
    real property as reported on the DD Form 1662, “DoD Property in the Custody
    of Contractors.” To test the Military Departments’ GOCO real property
    records, we used the Integrated Facilities System, the Navy Facility Assets Data
    Base, and the Automated Civil Engineering System, all as of
    September 30, 1999. We performed existence and completeness testing of
    GOCO real property in the Military Departments’ databases. We performed
    audit work at the Lake City Army Ammunition Plant, the Hawthorne Army
    Depot, Newport News Shipbuilding, the Rocket Center Industrial Research
    Ordnance Plant, Johns Hopkins University Applied Physics Laboratory, Tinker
    Air Force Base, and Air Force Plant 42. As of September 30, 1999, the value
    of contractor-reported GOCO real property was $7.7 billion for the Military
    Departments, or $3.7 billion, $1.4 billion, and $2.6 billion for the Army, the
    Navy, and the Air Force, respectively. In the Army, we tested 39 facilities for
    existence testing and 140 facilities for completeness testing. In the Navy, we
    tested 24 facilities for existence testing and 80 facilities for completeness testing.
    In the Air Force, we tested 63 facilities for existence testing and 69 facilities for
    completeness testing. Real property included buildings, structures, and
    facilities.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to the following goal, subordinate performance goal, and performance
    measures.

    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.51.)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.52.)


                                         14
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           •   Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Financial Management high-risk area.

    Use of Computer-Processed Data. To achieve the audit objectives, we relied
    extensively on computer-processed data in several systems. We relied on the
    data from the Integrated Facilities System for the Army, the Navy Facility
    Assets Data Base System for the Navy, the Automated Civil Engineering System
    for the Air Force, and the Contract Property Management System for all
    Military Departments. We found the data from the Army system to be reliable.
    We did not find data from the remaining systems to be reliable. The
    unreliability of the data from those systems supported the finding that the real
    property databases were unreliable for GOCO properties.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from September 1999 through August 2000, in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We included tests of management
    controls as were considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and private companies holding facilities contracts with
    DoD. Further details are available on request.

Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the Military Departments’ management controls over accountability
    for GOCO real property and the maintenance of databases. Specifically, we
    reviewed management controls over existence and completeness, acquisition,
    and disposal of GOCO real property maintained in the Military Departments’
    databases. We reviewed management’s self-evaluation applicable to those
    controls.


                                       15
Adequacy of Management Controls. We identified material management
control weaknesses for GOCO real property in the Navy and Air Force
databases as defined by DoD Directive 5010.38. The Navy and Air Force
databases did not contain all GOCO real property. The reported values of the
Navy and Air Force were significantly different from the contractor’s recorded
values. Management controls and processes must be established to verify that
data that contractors reported on the DD Forms 1662 are later reported to and
recorded in the Navy and Air Force real property databases.
Recommendations 1. and 2., if implemented, will result in at least an additional
$134.7 million being reported in the financial statements. A copy of the report
will be provided to the senior official responsible for management controls in
the Office of the Commander, Naval Facilities Engineering Command, and the
Office of the Commander, Air Force Facilities Support Branch, Acquisition,
Environmental, Safety and Health Division Engineering Directorate.

Adequacy of Management’s Self-Evaluation. Officials for the Navy and
Air Force real property databases did not identify GOCO property as an
assessable unit and, therefore, did not identify or report the material
management control weaknesses we identified.




                                   16
Appendix B. Prior Coverage

Inspector General, DoD
     Inspector General, DoD, Report No. 99-013, “Summary Report on Financial
     Reporting of Government Property in the Custody of Contractors,” October 15,
     1998.

     Inspector General, DoD, Report No. 98-042, “Financial Reporting by Selected
     Defense Agencies of Government Property in the Custody of Contractors”
     December 16, 1997.

     Inspector General, DoD, Report No. 97-202, “Financial Reporting of
     Government Property in the Custody of Contractors,” August 4, 1997.


Naval Audit Service
     Naval Audit Service Report No. 046-97, “Department of the Navy Fiscal Year
     1996 Annual Financial Report: Government Property Held by Contractors,”
     August 14, 1997.

Air Force Audit Agency
     Air Force Audit Agency Project No. 96053011, “Government Furnished
     Property, Fiscal Year 1995 Air Force Consolidated Financial Statements,”
     October 22, 1996.




                                       17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
     Director for Accounting Policy
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Commander, Naval Facilities Engineering Command
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force, Deputy Chief of Staff (Installations and Logistics,
  Civil Engineer)
Auditor General, Department of the Air Force

Other Defense Organizations
Defense Logistics Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland Center
   Director, Defense Finance and Accounting Service Denver Center
Director, Defense Finance and Accounting Service Indianapolis Center
Defense Contract Management Agency
Defense Contract Audit Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                           18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       19
Assistant Secretary of the Air Force, Deputy
Chief of Staff (Installations and Logistics, Civil
Engineer) Comments




                     21
22
23
Naval Facilities Engineering Command
Comments




                         24
25
26
27
Audit Team Members


The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report.

  F. Jay Lane
  Salvatore D. Guli
  David F. Vincent
  Barbara A. Sauls
  Harold R. Tollefson
  Monica S. Rice
  Kenneth A. Weron
  Brett A. Mansfield
  Timothy M. Nelson
  Leon D. Bryant
  Stephen G. Wynne
